                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: 1-11020003                                                                     Page 1 of 1



                 We initiated an investigation after an investigative review established that a company 1
         had used the address of a mail forwarding service for its mailing address, and that some
         timesheets reflected that the company employees were working on another agency's 2 SBIR
         awards while simultaneously working on NSF SBIR awards, and might have mischarged effort
         on the other agency's award to one of the NSF awards, or charged the same time to both awards.
         The awards might also have been based on duplicate proposals. The company also appeared to
         maintain different timesheets for a certain employee's work in a two-month period on two NSF
         awards, with different allocations of time between direct and indirect effort.

                 A review of abstracts of the various proposals shows that the awards from NSF and the
         other agency appear to be different; therefore further review for duplication was unnecessary.
         We also found no evidence of mischarging or duplicate charging among the various awards.

                 Using internet searches, we were able to verify that the company maintains business
         addresses at two locations, the original address provided on the proposals 3 and an address on an
         Industrial Lease provided during preliminary review. The internet searches verified that the
         "Lessor" does maintain and lease properties at the Industrial Business Center4 listed on the lease
         and that the company uses the industrial address on local business and search sites.

                 Regarding the timesheet discrepancies, the company said that this resulted from the
         maintenance of a master copy of the timesheets in the human resources file and working copies
         in the award files. We were provided the working copies in our initial request for information,
         instead of the master copies that were used to bill expenses to the awards. The company advised
         that as a result of our review it had changed its records policy to eliminate the working copies
         from its files. We accepted this explanation and concluded that the discrepancy was inadvertent
         and not indicative of fraud.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
